RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20-1162
MAINE COMMUNITY HEALTH OPTIONS, et al.,
Petitioners,
v.
UNITED STATES,
Respondent.
As required by Supreme Court Rule 33.1(h), I, Paul J. Zidlicky, certify that
the Brief for Amicus Curiae Chamber of Commerce of the United States of America
Supporting Petitioners in the foregoing case contains 5,653 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 25, 2021.
/s/ Paul J. Zidlicky
PAUL J. ZIDLICKY
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

